Peace Corps
Office of Inspector General




    Peace Corps office in Managua




         Flag of Nicaragua



   Final Audit Report:
  Peace Corps/Nicaragua
        IG-09-12-A

                                    July 2009
  Final Audit Report:
 Peace Corps/Nicaragua
       IG-09-12-A




____________________________________
          Gerald P. Montoya
Assistant Inspector General for Audits




             July 2009
                           EXECUTIVE SUMMARY

Several functions of Peace Corps/Nicaragua’s financial and administrative operations
were not in compliance with agency policy and federal regulations. In addition, internal
control over certain operations was not effective. The following provides a summary of
the more significant findings.

Imprest Fund
The post did not properly safeguard the imprest funds using a U.S. government approved
safe with separate cash boxes for different currencies.

Time and Attendance
The post did not establish adequate controls over time and attendance to ensure records
were properly supported and reviewed by supervisors.

Property Management
The post lacked separation of duties between maintaining property inventories and
conducting the inventory count. Also, property inventory records were not properly
maintained.

Medical Supplies
The post did not establish an effective process for tracking and inventorying medical
supplies.

Vehicle Management
The post did not use the correct vehicle usage logs, did not have an adequate process to
ensure vehicles were properly maintained, and did not separate duties for dispensing fuel
and recording fuel consumption. In addition, the post did not procure the least costly
vehicle and failed to dispose of vehicles timely.

Personal Services Contracts
Personal services contract folders were incomplete and staff did not sign the intelligence
background information certification.

Volunteer Support
The post did not conduct a market basket survey in fiscal years 2007 and 2008 to verify
the accuracy of Volunteer allowances surveys.

There were no reportable conditions in the areas of the post’s billings and collections,
budget, grants, and International Cooperative Administrative Support Services.

Our report contains 55 recommendations, which, if implemented, will strengthen internal
controls and correct the deficiencies detailed in this report. Management fully concurred
with all of the recommendations. We closed 47 recommendations based on
management’s comments and request additional documentation for 8 recommendations.


Final Audit Report: Peace Corps/Nicaragua                                                    i
                                                         Table of Contents

EXECUTIVE SUMMARY ................................................................................................. i

INTRODUCTION .............................................................................................................. 1

AUDIT RESULTS.............................................................................................................. 1
A. ACCOUNTING FOR OBLIGATIONS AND LIQUIDATIONS................................................................................ 2

B. IMPREST FUND ........................................................................................................................................... 4

C. TIMEKEEPING ............................................................................................................................................. 7

D. MEDICAL SUPPLIES .................................................................................................................................... 9

E. PROPERTY MANAGEMENT ........................................................................................................................ 14

F. VEHICLE MANAGEMENT .......................................................................................................................... 20

G. PERSONAL SERVICES CONTRACTS ........................................................................................................... 27

H. LEASES .................................................................................................................................................... 31

I. RECORDS MANAGEMENT .......................................................................................................................... 32

J. INFORMATION TECHNOLOGY ..................................................................................................................... 33

K. VOLUNTEER SUPPORT.............................................................................................................................. 35

L. TRAVEL .................................................................................................................................................... 36


QUESTIONED COSTS AND FUNDS PUT TO BETTER USE .................................... 37

POST STAFFING............................................................................................................. 38

LIST OF RECOMMENDATIONS .................................................................................. 39

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY

APPENDIX A: LIST OF ACRONYMS

APPENDIX B: MANAGEMENT’S RESPONSE TO PRELIMINARY REPORT

APPENDIX C: OIG COMMENTS

APPENDIX D: AUDIT COMPLETION AND OIG CONTACT
                                 INTRODUCTION

The Office of Inspector General (OIG) conducted an audit of Peace Corps/Nicaragua
covering the period October 1, 2007 – February 13, 2009. We conducted a site visit to
Peace Corps/Nicaragua from January 25 – February 13, 2009.

The Peace Corps began its program in Nicaragua in 1968. However, operations were
suspended in 1979. In May 1991, Peace Corps returned to Nicaragua. Peace Corps
Crisis Corps Volunteers assisted Nicaragua in Natural Disaster Reconstruction from 1998
to 2001. At the time of our visit, 169 volunteers were working in the areas of Public
Health, Small Business, Education, Environment, and Agriculture. The country director
has worked for Peace Corps/Nicaragua for over five years and the administrative officer
for over eight years.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations were functioning effectively and complying with Peace Corps
policies and federal regulations. Appendix A provides a full description of our audit
objective, scope, and methodology.


                                AUDIT RESULTS

Our audit disclosed that the post’s compliance with Peace Corps policies and federal
regulations in some areas required improvement and internal control over certain
operations was not effective. However, we found no reportable conditions in the areas of
the post’s billings and collections, budget, grants, and International Cooperative
Administrative Support Services.

Administrative Operations
The post did not sufficiently document the receipt of goods and services. The post did
not properly safeguard the imprest fund. Personal services contract folders were
incomplete and staff did not sign the intelligence background information certification.
Documentation for leases did not include sufficient evidence of competition. In addition,
the post did not ensure supervisory review of time and attendance records.

Internal Controls
The post lacked separation of duties between maintaining property inventories and
conducting the inventory count. The post did not implement an effective process for
tracking and taking inventory of medical supplies. In addition, the post did not ensure
vehicles were adequately managed.

Volunteer Support
The post did not conduct a market basket survey in FYs 2007 and 2008 to verify the
accuracy of Volunteer allowances surveys.

Final Audit Report: Peace Corps/Nicaragua                                                 1
A. ACCOUNTING FOR OBLIGATIONS AND LIQUIDATIONS

1. Goods and services were ordered and received prior to purchase request approval
   and obligation of funds.

Peace Corps Manual (PCM) section 753.4.1 states:
       The controls at a post must be adequate to assure that neither over
       obligations nor over expenditures occur within limitations placed on line
       items and on the overall amounts available in sections [of] the budget in
       total.

Overseas Financial Management Handbook (OFMH) section 32.3 states:
       An obligation is a firm reservation of funds that creates a legal liability on
       the Government for the payment of goods or services ordered. In general
       terms, the obligation must indicate the requirement (goods/services/other),
       the vendor, and the cost and be authorized by staff with delegated
       procurement authority. For accounting purposes, the term "obligation"
       includes goods and services that have been ordered, but which may or may
       not have been received. The obligation is made using funds available at
       the time the order is placed or contract executed, even though payment
       may take place in a future fiscal year. Documents used for obligation
       include contracts, leases, purchase orders, and travel authorizations.

Several employees at the post ordered and received office supplies and printing services
before the administrative officer approved the purchases and obligated funds in FORPost,
the agency accounting system used by overseas posts. Only the country director,
administrative officer, and programming and training officer had delegated procurement
authority to approve purchases of goods and services. In fiscal year (FY) 2008,
employees purchased $1,435 in supplies and services without proper approval. The
administrative officer, subsequent to receipt of those goods and services, authorized
payment and recorded an obligation in FORPost upon receipt of the vendor’s invoices.

Post staff must submit a purchase request for approval when they identify a need for
goods or services. This allows the approving official to verify that there are sufficient
funds available to initiate a purchase. The post increases the risk of exceeding its budget
and violating the Antideficiency Act when they do not ensure there is sufficient funding
available before ordering and receiving goods and services.


               We recommend:

               A.1.a That the administrative officer require that post staff
                     submit purchase requests to an approving official
                     prior to placing orders for goods and services so
                     that funding availability can be verified and funds
                     are obligated on approval.
Final Audit Report: Peace Corps/Nicaragua                                                 2
2. The post did not properly document receipt of goods and services.

According to OFMH section 66.3:

       The most frequent question is related to who can sign the (many) payment
       vouchers and, in this instance, the key is to assure separation of duties, so
       that whomever receives the goods/services is different from whomever
       approves the payment. Quite simply, this separation is required to prevent
       fraud.

       The delegations required to process payments are normally made to the
       approving official (who approves the payment) and the "receiving official"
       who certifies that the items/services that were authorized, by the original
       obligation, have been received. The authority to approve payments is an
       inherent governmental function and must be administered by direct hire
       staff (FP or FSN).

       The authority to receive goods, on behalf of the Government, may be
       delegated to either direct hire staff OR to a PSC under the supervision of
       direct hire staff.

The country director delegated receiving authority to the administrative officer. When
the post received goods or services, the administrative assistant prepares and the
administrative officer signs the form PC-2059, “Payment Voucher and Receiving
Report.” The form includes a line stating, “I certify that the ordered items were received
and accepted on _____, except as follows: _____.” However, the administrative officer
did not consistently enter the required date in the space provided on the form. The
administrative officer signed as receiving official and the country director approved the
payments. Although this provided adequate separation of duties, the administrative
officer was not always aware of the date goods or services were received.

On several occasions post staff received the purchased goods or services directly. For
example, the storage clerk received office supplies and signed the vendor’s invoice as
being received, but did not include the date. As a result, the administrative officer could
not always enter a receipt date on the form PC-2059.

OFMH section 66.10 states:

       Payments to vendors issued by PC/W [Peace Corps/Washington] are made
       consistent with Federal accounting practices and the Prompt Payment Act,
       31 U.S.C. § 3903. The purpose of the Prompt Payment Act is to ensure
       that federal agencies make timely payment to vendors and to provide for
       late interest penalties against agencies that pay vendors after a payment
       due date. Under the Prompt Payment Act, payment to a vendor is due 30
       days after receipt of a proper invoice or after Government acceptance of
       the supplies delivered or services performed; whichever date is later. In

Final Audit Report: Peace Corps/Nicaragua                                                     3
       consideration that the 30-day period for payment may begin when the
       Peace Corps receives a proper invoice, it is important that the vendor
       provides all required documentation to initiate the processing for
       payment. Posts should enter vendor invoices into FORPost upon receipt
       of goods/services or properly prepared invoice, whichever is later. The
       date entered into FORPost is the date used as the receipt date for Prompt
       Payment.

Without a properly documented date of receipt the administrative officer could not ensure
that he entered the invoices into FORPost on the correct date. As a result, the post did
not have assurance that it complied with the Prompt Payment Act, paid invoices timely,
and avoided potential interest penalties.


               We recommend:

               A.2.a That the country director designate a receiving
                     officer, other than the administrative officer, that is
                     accountable for accepting deliveries of goods and
                     services and completing the required information,
                     including the date of receipt, on form PC-2059,
                     “Payment Voucher and Receiving Report.”


B. IMPREST FUND

1. The post did not appoint an alternate cashier.

PCM section 760.8.0 states:

       Each principal (Class B) cashier must have an alternate cashier at the same
       location. If assisting in regular cashier duties, the alternate must have his
       or her own safe or a separate drawer with a separate three-tumbler,
       government approved security lock in a shared safe.

       In most cases, an alternate cashier will only serve in the absence of the
       principal cashier, normally using funds from an interim advance from the
       Class B cashier. The Country Director or his/her designee must determine
       if the absence of the principal cashier will be of such length as to justify
       the transfer of the imprest funds to the alternate cashier. In such cases, a
       formal transfer of funds, including imprest fund reconciliation, must be
       accomplished and the combination of the safe must be changed.

In addition, PCM section 760.9.0 requires that cashiers be direct hire employees, either
foreign personnel or foreign service national (FSN); speak and read English fluently;
meet embassy security requirements; and have appropriate experience and abilities.

Final Audit Report: Peace Corps/Nicaragua                                                  4
As indicated in Peace Corps policy, the alternate cashier must be a U.S. direct hire or
FSN. In FY 2008, the country director and programming and training officer were U.S.
direct hires and the administrative officer and cashier were the only FSN employees. The
post did not appoint an alternate cashier even though the administrative officer was
qualified. As a result, when the cashier separated from the Peace Corps on December 19,
2008, the post did not have an officially designated cashier for 25 days. On January 8,
2009, the administrative officer was designated as temporary cashier. Subsequently, the
post hired a new cashier on March 15, 2009. In addition, on February 1, 2009 the post
converted the financial assistant position to FSN status. This will allow the financial
assistant to be an alternate cashier.

We determined that the post recognized the need for an alternate cashier and has taken
appropriate action to prevent future occurrences of gaps in the cashiering function when
the primary cashier is away from the post. As a result, we are not making any
recommendations related to the appointment of an alternate cashier.


2. The cashier did not use a U.S. government approved safe to store imprest fund
   cash.

PCM section 760.5.0 states:

       Imprest funds must be stored in a U.S. government approved safe,
       preferably a cashier's or money safe, with a three-tumbler combination
       lock. The safe should be kept in a protected area, such as a sturdy
       enclosed room with a cashier's window designed to prevent people from
       reaching the safe or cash box.

       In the event a safe is not available on site, a temporary storage facility
       with a bar-locked cabinet and a three-tumbler combination lock must be
       provided. Until these protections are in place, a cashier may not accept
       custody of funds.

Although the area within the cashier’s cage contained three safes, only two of them
appeared to be official U.S. government safes. When the former cashier left the post on
December 19, 2008, the administrative officer removed the cash from the imprest fund
safe. Instead of using the other official safe, the administrative officer placed the imprest
fund cash in the third safe that was much smaller and did not include the three-tumbler
combination lock or bar-lock as required by Peace Corps policy.

The administrative officer said that he moved the funds out of the official safe because
the post had not yet changed the combination to the official safe when the former cashier
left. PCM section 760.5.2 states, “The combination [to the imprest fund safe] should be
changed annually, whenever there is a change in cashiers, or whenever the combination
becomes known to a person other than the cashier.”



Final Audit Report: Peace Corps/Nicaragua                                                   5
The post is not in compliance with Peace Corps policy and increases the risk of theft by
storing imprest fund cash in non-government approved safes. By changing the lock on
the official safe as soon as the cashier left the agency, the post could continue to use the
appropriate safe without concern of unauthorized access from previous employees.


               We recommend:

               B.2.a That the administrative officer immediately move
                     the imprest fund cash to a safe containing a U.S.
                     government approved three-tumbler combination
                     lock and request the regional security officer
                     determine whether the safes in the cashier cage are
                     approved for U.S. Government use.

               B.2.b That the new principal cashier, upon assuming post
                     cashiering responsibilities, keep the cash in a U.S.
                     government approved safe within the cashier’s cage
                     or appropriate secure area.

               B.2.c That the administrative officer ensure that the
                     combination of the safe where imprest fund cash is
                     stored be immediately changed when there is a
                     change in the responsible cashier.


3. The cashier did not adequately secure the cash within the imprest fund safe and
   kept items unrelated to the imprest fund in the safe.

PCM section 760.5 paragraphs 1, 3, and 4 state:

       Only items that are accountable as part of an imprest fund may be kept in
       the imprest fund safe. Accountable documents include money, checks,
       deposit slips, general receipts, interim advance receipts, paid sub-
       vouchers, and copies of reimbursement vouchers in-transit. No other funds
       or items may be stored in the cashier room or "cage."

       Each sub-cashier or alternate cashier should maintain a cash box of his/her
       own with its own key or combination lock.
       If a post operates both dollar and local currency funds, the two funds must
       be kept in separate cash boxes, accounted for separately, and may not be
       intermingled.

The cashier inappropriately kept a set of keys and documents not related to the imprest
fund inside the safe. By placing additional items in the safe, the cashier must open the
safe more than necessary and increases risks associated with cash loss or theft.

Final Audit Report: Peace Corps/Nicaragua                                                      6
In addition, the cash was kept in plastic trays and paper bags instead of cash boxes. Cash
boxes are necessary to ensure cash is adequately secured and also to prevent errors in
cash counts. Further, the boxes help separate the cashier’s funds from an alternate
cashier’s funds.


               We recommend:

               B.3.a That the cashier secure the cash in separate, locked
                     cash boxes within the safe.

               B.3.b That the cashier remove all items not related to the
                     imprest fund from the imprest fund safe.


4. The cashier conducted cashiering operations outside of the cashier cage.

OFMH section 13, exhibit D, states, “Payments should be made only from a
secure cashier office.”

The administrative officer, serving as alternate cashier, could not access his FORPost
account from the computer within the cashier cage. As a result, he carried checks and
cashier paperwork to his office on a separate floor to enter payments and cash receipts
into FORPost.

The cashier cage is designed to provide a secure location to conduct cashier operations.
By conducting cashier operations outside of the cashier cage the administrative officer
did not to comply with Peace Corps policy and increased the risk of theft or loss.


               We recommend:

               B.4.a That the information technology specialist resolve
                     the problem with the administrative officer’s access
                     to FORPost in the cashier cage.

               B.4.b That the cashier conduct all cashier operations
                     within the cashier cage.


C. TIMEKEEPING

1. The post did not establish adequate controls over employee time and attendance.

Government Accountability Officer report GAO-03-352G, “Maintaining Effective Control over
Employee Time and Attendance Reporting,” states:


Final Audit Report: Peace Corps/Nicaragua                                                   7
       Supervisory authorization and approval is a key part of ensuring the
       propriety of T&A [time and attendance] information. The supervisor or
       other authorized official should review and authorize employee’s planned
       work schedules and applications for leave, and review and approve
       employee submissions of actual time worked and leave taken, as well as
       information in T&A reports, and any adjustments or corrections to T&A
       records.

State Department Foreign Affairs Handbook Volume 4, Handbook 3, 525.2-2 through
525.2-3 states:

       Supervisors are accountable for the accuracy of T&A reports. Since
       approval of T&A reports is based on the reliance of management controls,
       the supervisors must have a reasonable basis for verifying accuracy and
       compliance with those controls.

       Supervisors must review and approve T&A reports of employees for
       whom they are responsible. Supervisors must also ensure that the
       approved T&A reports are submitted to the servicing payroll office by the
       due date. In case of any adjustment to leave records of an employee, the
       supervisor must review and certify such changes on the leave statement.

The post’s employees recorded arrival time and departure time in a post-developed log
book at the office entrance. The timekeeper used the log book to enter employee time
and attendance in the time and attendance worksheet, and then used the worksheet
information to fill in the annual attendance record.

However, the log book did not include a paragraph stating that the time was accurate nor
did it require supervisory signature. Also, the log book was not designed to accumulate
time by pay period making the transfer of data inefficient and prone to errors. Further,
employee signatures and time recorded in the log were sometimes illegible and did not
account for sick or annual leave. As a result, it was difficult to reconcile an employee’s
daily attendance with the annual attendance records.

Peace Corps domestic employees are required to record time, attendance, and leave on an
Individual Time Certification Sheet (form PC-1548). This form records daily attendance
for the biweekly pay period and shows evidence of supervisory review. During our audit,
we noted that the employees were using only the log book to record their time and
attendance on a daily basis. We believe that use of the log book may be practical for
purposes of documenting arrival and departure data. However, it does not fulfill the
above stated criteria that establishes minimal requirements for recording of time and
attendance data.

The Peace Corps/Nicaragua Staff Handbook required staff, “To record attendance daily
on an ‘Individual Time Certification Sheet’ and certify it for submission to their
supervisor and timekeeper at the end of each pay period.” We believe that by following

Final Audit Report: Peace Corps/Nicaragua                                                    8
the post’s handbook and using the PC-1548, or a similar form requiring the same types
data, the post will strengthen its internal control over time and attendance. Use of such a
form will provide a more consistent and coherent method to capture all of the necessary
time and attendance data. After discussing the time and attendance issue with the
administrative officer, he instructed his staff to immediately begin using the PC-1548.


               We recommend:

               C.1.a That the country director ensure that staff record
                     their time and attendance using PC-1548, or a
                     similar form that captures all of the minimally
                     necessary time and attendance data, and that
                     supervisors certify the data recorded through
                     signature.


D. MEDICAL SUPPLIES

1. The post did not maintain adequate separation of duties over its medical supplies.

PCM section 734.3.4 states:

       The Medical Supply Inventory Control Clerk (MSIC Clerk) is designated
       by the Country Director. The MSIC Clerk maintains the Medical
       Inventory Control Log, which houses the inventory status of all medical
       supplies that are specially designated or controlled substances purchased,
       received, and stocked at post. The MSIC Clerk must be a person from
       outside the Medical Unit staff.

       The Acceptance Point Clerk (APC) is responsible for receiving medical
       supplies at post and coordinating their initial inventory and transfer to the
       Medical Unit. The APC works with both the MSIC Clerk and the PCMO
       [Peace Corps Medical Officer] to ensure that medical supplies are
       delivered and inventoried. The APC must not be an individual assigned to
       the Medical Unit staff, and cannot serve as the MSIC Clerk. Further, the
       APC may not perform the quarterly inventory of medical supplies.

According to PCM section 734.3.5.3:

       The MSIC Clerk must maintain an accurate and complete set of inventory
       records for all medical supply items that are specially designated or
       controlled substances (Medical Inventory Control Log). . .

       The PCMO must use form PC-734C to record the item and quantity
       dispensed, to whom it was dispensed, and when dispensed. . .

Final Audit Report: Peace Corps/Nicaragua                                                 9
       Copies of the PC-734C forms and disposal records should be sent to the
       MSIC Clerk at least monthly. Before providing copies of the form PC-
       734C to the MSIC Clerk or anyone other than Medical staff, the section of
       the form containing personally identifiable information must be removed
       and destroyed.

On November 26, 2008, Peace Corps updated PCM section 734 to improve internal
controls over medical supplies. The updated guidance assigned the MSIC clerk inventory
responsibilities. However, other than designating a MSIC clerk, the post had not begun
to implement the new requirements. We determined that a PCMO was still primarily
responsible for the medical supply inventory, acquisition, receipting, storage, and
disposal of medical supplies. Further, an acceptance point clerk was not designated and
in place as required by the new policy. As a result, the post did not have adequate
separation of duties and the MSIC clerk could not ensure records were accurate or
complete.

It is important that the post implement the revised Peace Corps policy related to medical
supplies and equipment in a timely manner. Adequate separation of duties is critical to
effective internal control and minimizes the risks associated with fraud, waste, and abuse.


               We recommend:

               D.1.a That the country director designate a staff member
                     as an acceptance point who is outside the medical
                     unit and not the medical supply inventory control
                     clerk to immediately begin to receive, inspect, and
                     distribute medical supplies to the medical unit and
                     assume all other duties as described in PCM section
                     734.

               D.1.b That the country director designate a staff member
                     outside of the medical unit who is not the medical
                     supply inventory control clerk or acceptance point
                     to perform quarterly physical inventories of medical
                     supplies.

               D.1.c That the country director ensure that duties
                     associated with receipt and acceptance of medical
                     supplies; maintaining official medical supply
                     inventory records of specially designated items and
                     controlled substances; and periodic physical
                     inventory counts be without exception, assigned to
                     separate staff members that are outside the medical
                     unit.



Final Audit Report: Peace Corps/Nicaragua                                               10
2. Medical inventory records were not accurately maintained.

PCM section 734.3.5 states:

       The CD [country director] and PCMO share the responsibility to maintain
       effective control over medical supplies to ensure that these items are
       properly dispensed or disposed of in accordance with Peace Corps policies
       and procedures. Assurance that effective controls are in place is achieved
       through maintaining appropriate segregation of duties, accurate record
       keeping, secure storage, and periodic inventories.

We attempted to verify the existence of the seven controlled substances listed on the
monthly inventory of controlled substances. Controlled substances are regulated by the
Drug Enforcement Agency because of potential abuse and safety concerns. The
inventory record did not list the correct number of tablets for one of the seven substances.
A PCMO had listed 60 tablets on the inventory, but our count confirmed there were only
36 tablets. The PCMO said that the last inventory was incorrect and the error was
attributable to recording two full boxes without opening them to verify the number of
tablets inside.

In addition, our audit sample included one of the non-controlled pharmaceuticals. We
compared the medical unit’s records for dispensing the item with the most recent
inventory that had included a physical count. The PCMOs used a wall chart to record
when they dispensed non-controlled medical supplies. The chart listed a quantity of 360
pills. However, our count disclosed that there were only 160 pills were on hand. The
MSIC clerk checked through prescriptions and identified 100 pills that a medical officer
dispensed but did not record on the chart. The clerk could not readily explain the
remaining difference. By the end of the week the PCMOs had determined the disparity in
the inventory record was caused by a miscalculation in the quantity received. When the
medical staff received ten boxes of pills they incorrectly recorded 30 pills per box instead
of the actual quantity of 20 pills per box. As a result, the post overstated the inventory by
100 pills.

Accurate and complete inventory records are critical to effective internal control over
medical supplies. In addition, accurate inventory records are necessary to ensure that
there is an adequate supply of medicals supplies available to treat Volunteers. Effective
inventory procedures are necessary to prevent theft, loss, and potential abuse of medical
supplies. We address the need for improved medical supply tracking and inventory
procedures in paragraph D.1. Before implementing inventory procedures in accordance
with PCM section 734, the records must be accurate and complete.




Final Audit Report: Peace Corps/Nicaragua                                                 11
               We recommend:

               D.2.a That the country director require that an immediate
                     physical inventory count of medical supplies be
                     performed by a designated staff member (as
                     discussed in recommendation D.1.b above).

               D.2.b That the country director, in conjunction with the
                     medical officers, review the results of the
                     comprehensive physical inventory and reconcile
                     any differences found. The medical officers must
                     fully explain all discrepancies found, provide
                     proposed adjustments in inventories accordingly,
                     and report any losses in accordance with PCM
                     section 734.

               D.2.c That the country director approve the proposed
                     adjustments (if any) to the inventory.

               D.2.d That the medical supply inventory control clerk
                     document the results of the comprehensive medical
                     supply inventory together with any approved
                     adjustments to the inventory in permanent inventory
                     records as prescribed in PCM section 734.

               D.2.e That the medical unit provide the medical supply
                     inventory control clerk with PC-743C forms
                     recording the dispensing of all medical supplies that
                     are specially designated or controlled substances at
                     least on a monthly basis.

               D.2.f That the medical supply inventory control clerk
                     maintain an accurate and complete medical supply
                     inventory record based on receipting documents
                     provided by the acceptance point, PC-743C forms
                     recording dispenses, disposal documentation, and
                     reconciliation of the results from the quarterly
                     physical inventory counts.




Final Audit Report: Peace Corps/Nicaragua                                    12
3. The post did not have sufficient medical office space to provide adequate storage of
   medical supplies.

PCM section 734.3.5 states:

       The CD and PCMO share the responsibility to maintain effective control
       over medical supplies to ensure that these items are properly dispensed or
       disposed of in accordance with Peace Corps policies and procedures.
       Assurance that effective controls are in place is achieved through
       maintaining appropriate segregation of duties, accurate record keeping,
       secure storage, and periodic inventories.

PCM section 734.3.6.1 states:

       Posts must provide secure storage for all medical supplies that are
       specially designated or controlled substances. Secure storage must
       provide effective controls and safeguards against theft and diversion.
       Controlled substances must be kept in a bar-locked cabinet with a three-
       way combination lock. The filing cabinet must be placed in a locked room
       (such as a medical supply closet) within a locked office building. Any
       cabinet or safe used to store controlled substances that weighs less than
       750 pounds must be bolted or cemented to the floor or wall in such a way
       that it cannot be easily removed.

During our site visit in February 2009, we observed vaccines stored in an unlocked
refrigerator (see pictures). The medical staff did not adequately monitor access to the
refrigerator. The refrigerator was located on a different floor then the medical officers, in
the same room as the copy machine and staff refrigerator. This did not provide secure
storage of medical supplies and increased the risk of lost or stolen medical supplies.
Additionally, a refrigeration malfunction could go unnoticed and result in the loss or
unknowing use of spoiled medical supplies.


                    Unsecured Refrigerator Storing Medical Supplies




Final Audit Report: Peace Corps/Nicaragua                                                 13
According to the country director, the medical offices did not have space for the
refrigerator. The medical office consisted of three small offices, the supply storage area,
and the front desk. The post could alleviate concerns of inadequate storage space by
increasing the medical office space.

In February 2009, the post was building an additional office on the second floor. By
rearranging the office, the country director could create additional room on the first floor
for the medical officers to expand into. With additional space, the medical officers could
properly secure their refrigerator and arrange the physical layout to improve the
workflow.

It is essential that the post provide secure storage over medical supplies. This is
especially critical for controlled substances and other items that would be subject to
losses resulting from pilferage. Peace Corps policy requires that both controlled
substances and medical supplies that are specially designated be kept in secure areas that
provide protection against theft and diversion.


               We recommend:

               D.3.a That the country director increase the size of the
                     medical offices to provide adequate and secure
                     space to store all medical supplies in compliance
                     with Peace Corps policy.

               D.3.b That the medical unit install a lock on the
                     refrigerator containing medical supplies to secure
                     the items until they can be relocated to the medical
                     office.


E. PROPERTY MANAGEMENT

1. The post did not maintain adequate separation of duties over management of the
   property inventory records and performance of the physical inventory verification.

PCM section 511.5.6 states, “Individuals other than the Property Officer check database
property reports against physical inventory of property to confirm the existence of
property listed on the inventory record.”

The general services officer (GSO) served as the property officer. The property officer is
responsible for receiving and properly recording new property in the property
management records. The property officer’s duties also include signing for all new
property, attaching the bar-code to the property, and recording property disposals.
However, the GSO also conducted the annual physical inventory verification. As a
result, the post lacked proper separation of duties in this area. The Government


Final Audit Report: Peace Corps/Nicaragua                                                 14
Accountability Office, “Standards for Internal Control in the Federal Government,”
states:

       Key duties and responsibilities need to be divided or segregated among
       different people to reduce the risk of error or fraud. This should include
       separating the responsibilities for authorizing transactions, processing and
       recording them, reviewing the transactions, and handling any related
       assets. No one individual should control all key aspects of a transaction or
       event.

To ensure effective internal control and comply with Peace Corps and federal policy an
individual assigned to conduct inventory counts must be independent of the inventory
management and recording process. Further, the individual assigned to perform an
inventory should not be an accountable property holder for the property they will
physically count.


               We recommend:

               E.1.a That the country director separate the duties of
                     maintaining the inventory records and conducting
                     the annual physical inventory by appointing an
                     individual other than the property officer to conduct
                     the annual inventories.


2. The post did not maintain or verify inventory records in accordance with policy.

PCM section 511.5.5 states:
       The inventory is a reconciliation of the previous year's records against all
       acquisitions, transfers, disposals and other property changes that have
       occurred throughout the year.

PCM section 511.5.6 requires:

       Individuals other than the Property Officer check database property
       reports against physical inventory of property to confirm the existence of
       property listed on the inventory record.

       [The property officer] contact individuals and organizations to whom non-
       expendable property is assigned to verify the presence and condition of the
       property issued.

       Note on inventory all property that may be excess to office needs as well
       as property that is unserviceable; initiate actions to redistribute or dispose
       of these items.

Final Audit Report: Peace Corps/Nicaragua                                                15
The post did not conduct sufficient inventories and ensure the property officer updated
the property records. In November 2008, the property officer printed out a list of
accountable property for each individual assigned property (accountable property holder).
The property officer accompanied some of the accountable property holders when
conducting an inventory. However, the property holders did not always annotate all
changes on the inventory records and only one annotated a date for the inventory.
Further, the inventories were not consistently marked. Most of the inventories had a “c”
or “x” next to each item, but did not explain what these letters indicated. Other property
holders inserted a check mark next to items, but there were some items without a check
mark, causing confusion as to whether such items had been verified or if the property
record was incorrect.

The post cannot ensure accurate property records without an adequate inventory process
that confirms the physical existence and condition of each property. A lack of accurate
and complete inventory records will result in increased risks associated with pilferage and
other losses of property. PCM section 511.5.2 states, “Each office must take an inventory
at least once a year, physically counting each item to verify that all property is on hand
and properly recorded in the property management database. Offices may inventory
various categories of non-expendable property throughout the year to balance workload.”
As discussed in paragraph E.1, the post must assign physical inventory responsibility to
an individual other than the property officer or accountable property holder of the
property being inventoried. Inventorying different types of property throughout the year
is more efficient enabling individuals that oversee performance of physical inventories to
focus more on their principal assigned duties.


               We recommend:

               E.2.a That the country director ensure there is a consistent
                     inventory process in place that clearly indicates
                     property has been verified, discrepancies are noted,
                     and the dates of inventories are documented.
                     Further, accountable property holders must not be
                     assigned to perform physical inventory of property
                     they are held accountable for.

               E.2.b That the property officer develop a schedule that
                     provides for inventory different property categories
                     throughout the year to ensure that all property is
                     inventoried within a year.




Final Audit Report: Peace Corps/Nicaragua                                               16
3. The property officer did not update the property records timely and completely.

PCM section 511.5.6 states:

       [The property office] prepares final inventories, making necessary changes
       in the property management database and including explanations of
       overages/shortages.

PCM section 511.5.7 states:

       The Property Account Holder certifies the accuracy of the completed
       inventory, using the Property Account Holder's Annual Property
       Certification memo.

The property officer did not update the property records based on the annual inventory.
During the annual inventory the property officer or property account holders compared
the property record to the actual property. They wrote on the inventory whether the
property was excess, disposed, or in different location than indicated in the property
records. In November 2008, the physical inventories identified 29 properties listed on the
inventory twice and 90 properties noted as excess, not on the list, or other annotations
indicating a problem with the record. In February 2009, we conducted a judgmental
sample of 35 property records and included two of the items listed on the inventory twice
and 4 property records that had unusual annotations on the November 2008 inventory.
During our testing we determined that the most current inventory contained the following
errors.

Table 1. Issues With Property Inventory
                   Issue                                        Items
Missing or not located                        One telephone
Listing on the inventory twice                Two different chairs
Not properly marked as not serviceable or     One telephone, two cell phones, and a
excess                                        computer
                                              Two pieces of furniture, a computer, a
No longer had visible barcodes                safe, a cell phone, and an industrial
                                              vacuum
Not in the location listed on the inventory   A refrigerator and an industrial vacuum


We concluded that the property officer was not updating property records timely and had
not corrected all of the discrepancies identified during the last inventory. PCM section
511.3.3 states, “The Property Account Holder (PAH), usually a Country Director,
Regional Manager, or headquarters office manager, is ultimately responsible for all Peace
Corps personal property within his or her office.” Neither the country director nor
administrative officer had confirmed that the property officer updated the property
records after the last inventory.

Final Audit Report: Peace Corps/Nicaragua                                               17
Without accurate and up-to-date inventories the post did not have reasonable assurance
that the property officer would identify property theft and loss. In addition, the Peace
Corps relies on the property records for entering accurate and complete data related to its
assets into the financial records. As a result, posts need to maintain current property
records and accurate inventories to ensure Peace Corps financial statements present
correct information.


               We recommend:

               E.3.a That the property officer review the results of the
                     last inventory and update the property records and
                     continue to consistently update the property records
                     immediately after each physical inventory.

               E.3.b That the country director verify that all property
                     records are updated timely after each physical
                     inventory.


4. The post did not dispose of excess property timely.

PCM section 511.8.0 states:

       Worn out or excess property must be disposed of in a timely fashion. The
       practice of storing and accounting for property in excess of requirements
       is uneconomical and an unnecessary administrative burden. Accordingly,
       the Property Account Holder or designee shall inspect property on a
       routine basis. If property is not used or under-used, immediate action
       must be taken to dispose of such property either through transfer, sale or
       redistribution to other offices.

The property officer kept excess property in a storage shed located within the Peace
Corps perimeter and in a leased warehouse space within the city (see pictures below).
The property was not well organized or managed. During the sample inventory testing
the property officer had to climb over tables and boxes to locate items included in our
sample. Although the administrative officer informed us that the post will use some of
the property to furnish the new associate Peace Corps director’s residence, most of the
property is excess to the post’s needs and should be sold or disposed of using a method
determined to be the most cost effective to the government.




Final Audit Report: Peace Corps/Nicaragua                                                 18
        Property in the Peace Corps Storage Shed (left) and Warehouse (right)




In the past, the post relied on the embassy to sell its excess property. According to the
administrative officer, the embassy would not include the Peace Corps property in their
FY 2008 auction because of the large amount of property State Department needed to
sell. As a result, the Peace Corps had to lease larger warehouse space at the offsite
location because it did not timely dispose of property considered as excess.

In our opinion, if the post would have sold its excess property instead of waiting on
another embassy auction, it may have avoided renting the additional storage space. The
administrative officer informed us that the larger warehouse cost less. However,
depending on how much property the post could sell, we believe that it could have found
less expensive storage alternatives by reducing its inventory of excess property. PCM
section 511.8.5 permits the post to sell excess property to the public. This policy further
specifies that posts may dispose of obsolete property or property for which the estimated
cost of collection and disposal exceeds the estimated proceeds of sale, provided the post
fully documents the process and complies with applicable laws and regulations.

By storing increasingly greater amounts of excess property for longer periods of time
such items inevitably continue to deteriorate and decrease in value. Additionally,
property managers spend more time managing the excess property and performing annual
inventories. By selling or otherwise disposing of unneeded property, posts could use the
proceeds for other purposes and avoid the administrative, and often times costly burden
of managing large quantities of excess property.


               We recommend:

               E.4.a That the property officer organize and document all
                     property in the storage shed and warehouse. The
                     documentation must include all excess property and
                     its condition to provide an accurate listing of items
                     in need of sale or other means of disposal.


Final Audit Report: Peace Corps/Nicaragua                                                   19
               E.4.b That the post inform the embassy of all excess
                     property to be sold at the next auction. If the
                     embassy is unable to sell the property timely, the
                     post must arrange to sell it through a public sale in
                     accordance with the Peace Corps Manual section
                     511.

               E.4.c That the post immediately dispose of obsolete
                     property or property not worth selling because the
                     cost of storing and maintaining it would exceed the
                     benefit. The disposal must be fully documented in
                     accordance with the Peace Corps Manual section
                     511.

               E.4.d Once the post sells or disposes its excess property,
                     that the country director, in coordination with the
                     property manager, reassess the post’s storage
                     requirements and determine the most efficient
                     means to secure and store excess property on hand.
                     Specifically, the post must reconsider the size of
                     storage space needed and develop a standard
                     operating procedure for organizing and storing its
                     excess property.


F. VEHICLE MANAGEMENT

1. The post exceeded its authorized number of vehicles and did not sell excess vehicles
   timely.

PCM section 527.5.1.1 states:

       A post may not maintain a vehicle fleet in excess of the established ceiling in the
       post's VFP [Vehicle Fleet Plan], except:

       (a) As approved by M/OBO;
       (b) For a temporary period necessary to dispose of an excess or replaced vehicle.
       (Posts should dispose of excess vehicles immediately as set out in MS 511,
       Property Management. Replaced vehicles shall be disposed of within 60 days of
       placing the new vehicle in service); or
       (c) For vehicles loaned to the Peace Corps without cost.

The post did not dispose of vehicles in the most time efficient manner. As a result, the
post exceeded its vehicle ceiling established in the vehicle fleet plan. The following chart
shows the post’s vehicle count, authorized level, and number of vehicles awaiting
disposal from August 2007 to February 2009.

Final Audit Report: Peace Corps/Nicaragua                                                20
Table 2. Post Vehicle Levels
                                                         Actual        Authorized
                                                                                       Awaiting
      Time                       Event                  Number of       Level of
                                                                                       Disposal
                                                         Vehicles       Vehicles
                   FY 2007 Vehicle Status Report
 August 2007       included two vehicles requiring           14             12             2
                   disposal in November 2007.
 January 2008      Post purchased four vehicles.             18             12             2
                   Headquarters approved five
 February 2008                                               18             12             7
                   vehicles for disposal.
 March 2008        Post purchased one vehicle.               19             12             7
                   Post sold five vehicles including
 April 2008        two approved in 2007 and three            14             12             2
                   approved in 2008.
                   Headquarters approved the local
 July 2008                                                   14             12             2
                   purchase of one vehicle.
 August 2008       Post purchased one vehicle.               15             12             2
                   FY 2008 Vehicle Fleet Plan
 August 2008                                                 15             13             2
                   increased the vehicle level.
                   Post had not disposed of the two
 February 2009                                               15             13             2
                   vehicles awaiting disposal.


The post had received approval to delay until November 2007, the disposal of two
vehicles it had replaced. However, the post did not sell the vehicles until April 2008, five
months after the extension had expired. The vehicles approved for disposal continued to
depreciate and lose resale value for five months.

Additionally, two other vehicles that had been approved for disposal in February 2008,
were not disposed of timely. The post has a maximum of 60 days after replacement to
dispose of a vehicle unless the region grants an extension. The post replaced the two
vehicles in January and March 2008. In June 2008, the region approved the post’s
request to keep one of these vehicles until a new vehicle arrived and the other vehicle
until November 2008 because of the large number of training groups.

Subsequently, the FY 2008 vehicle fleet plan increased the ceiling by one vehicle.
However, the post did not inform the Post Logistic Support Office (PLSO) as to the status
of disposal for these vehicles or whether it intended to keep one of the vehicles. The post
still had not disposed or transferred the two replaced vehicles as of February 2009.
Therefore, the post did not comply with the terms of the extension to the 60 day limit on
retaining excess vehicles and also exceeded the vehicle limitation in the vehicle fleet
plan. Based on sales of similar vehicles, the Peace Corps could have gained
approximately $32,800 in sales from these vehicles by taking timely action to replace and
sell the vehicle.



Final Audit Report: Peace Corps/Nicaragua                                                 21
The post expressed concerns that the current vehicle authorization level may not be
sufficient to meet the needs of the post. The Integrated Planning and Budget System FY
2009 – 2011 submission stated, “. . . Post’s vehicle fleet is not adequate from a security
perspective. Additional vehicles to support overall operations continue to be a high
priority for Post.” If the post needs an additional delay of disposal for its vehicles to meet
its current requirements and mitigate security risks it must justify any such delays and
request proper approval from headquarters by providing appropriate supporting
documentation to the region and PLSO.

It is important that posts regularly communicate its vehicle needs and status with the
region and the PLSO to ensure headquarters is able to maintain adequate control over the
agency’s vehicle levels and document decisions pertaining to the post’s fleet plans. Also,
selling excess fleet vehicles that have been replaced by new purchased vehicles is more
cost effective when done in a timely manner and Peace Corps policy requires that such
vehicles be disposed within 60 days of placing new vehicles in service.


               We recommend:

               F.1.a   That the post dispose or transfer all excess vehicles
                       in accordance with the approval to delay disposal or
                       request the an additional approval to delay disposal
                       from the region and Peace Corps post logistics
                       support office.

               F.1.b That the country director maintain the post’s
                     number of vehicles in accordance with the post’s
                     approved vehicle fleet plan.


2. The administrative officer did not adequately justify the purchase of a vehicle that
   was not the least expensive option.

The Peace Corps Vehicle Fleet Management Guide provides instructions on vehicle
acquisition and disposal. For local procurement of vehicles, the guide requires posts to
evaluate the life cycle costs to determine which vehicle is the least costly. Life cycle cost
is the total purchase price, shipping costs, maintenance costs, and additional expenses
less the vehicle’s expected resale value. Posts must submit the life cycle cost comparison
to the PLSO with each vehicle order.

In July 2008, the post requested to procure a vehicle locally. The administrative officer
sent the PLSO an email with the prices of three vehicle options and attached quotes from
vendors. The administrative officer requested permission to purchase a Toyota RAV
even though it was not the cheapest option. The Toyota was $1,688 more than a similar
Honda CRV model. The administrative officer explained that the Toyota was the best
value because of a higher resale value and lower maintenance and repair costs. However,

Final Audit Report: Peace Corps/Nicaragua                                                  22
the administrative officer did not provide the PLSO with the life cycle cost comparison to
justify his purchase request. Subsequently, the Inter-America and the Pacific regional
management and the PLSO approved the purchase without the required justification.

Prior to finalizing the acquisition, the post found a fourth vendor that offered the Toyota
RAV at a lower cost, enabling the post to purchase the desired vehicle at the least
expensive cost. However, the administrative officer still did not provide the necessary
cost comparison to the PLSO.

Further, the post purchased a blue-gray model of the Toyota RAV. The Peace Corps
Vehicle Fleet Management Guide requires posts to purchase white vehicles, unless a
different color is justified, because:

   •   White vehicles are associated with government and development agencies.
   •   White vehicles reflect heat (as opposed to darker colors which absorb heat). In a
       desert or tropical environment, a vehicle painted white can be up to 20 degrees
       cooler than a darker counterpart, thus easing strain on the engine and the air
       conditioning.
   •   White vehicles are typically less expensive and more readily available from fleet
       distributors.

The post’s documentation did not include a justification for the choice in color. The
PLSO informed us that it did not require the post to send justification of color to their
office because the post procured the vehicle locally. However, Peace Corps policy did
not provide for exceptions to the color justification requirement in cases of locally
procured vehicles. The administrative officer explained that the color was at no
additional cost and was available at the time of purchase. However, according to Peace
Corps guidance, the post’s documentation must include an explanation of the choice in
color because it was an exception to the standard policy.

Preparation of cost comparisons and related justifications for local purchase of vehicles is
a critical internal control associated with ensuring that Peace Corps’ management has
appropriate oversight, the post’s major purchases are cost effective, and posts are in
compliance with applicable Peace Corps policy.


               We recommend:

               F.2.a   That the Post Logistics Support Office require that
                       the post’s administrative officer always submit the
                       required purchase documentation for local vehicle
                       procurements, including a lifecycle cost comparison
                       and justification for purchasing vehicles that are not
                       white. The cost comparisons, any associated
                       justifications, and approvals must be maintained in
                       the fleet vehicle documentation files at post.

Final Audit Report: Peace Corps/Nicaragua                                                 23
               F.2.b That the administrative officer provide the required
                     cost comparison and associated justifications to the
                     Post Logistics Support Office whenever purchasing
                     a vehicle.


3. The general services officer did not implement the required Vehicle Usage Log
   (Peace Corps form 522A) or ensure employees followed Peace Corps policy for
   logging vehicle usage.

PCM section 522.4.1.7 states:

       Each trip taken with a Peace Corps vehicle overseas must be recorded by
       the driver in the daily vehicle log. See Attachment B, "Form 1490 B"
       (Form 1490 B supersedes Form 1490 in MS 527). Such log shall be
       reviewed by the administrative officer on a weekly basis and maintained
       for review by the Country Director on a monthly basis.

The post used a spreadsheet that it had developed to track vehicle usage, instead of the
required Daily/Weekly Vehicle Usage log. The spreadsheet did not contain all of the
required information including fields for authorizing trip signature, reviewed by, and
mechanical issues. In addition, vehicles logs reviewed were incomplete and inaccurate.
Based on a review of FY 2008 vehicle usage logs, we determined that drivers were not
entering whether trips were for official use only. The country director approved one
employee to use the vehicle for personal use on October 29, 2008, but the employee
incorrectly indicated on the log that the trip was "official work" and not "other authorized
travel." Another five vehicle usage logs were incomplete because the drivers did not
consistently fill in the field that shows whether the trip was for “official work” or “other
authorized travel.” Although the vehicle usage logs were incomplete, the GSO and
administrative officer stamped them as “reviewed.”

PCM section 522 is currently under revision and attachments were recently revised
resulting in form 1490 B being replaced by attachment B, Peace Corps form 522A,
“Weekly Vehicle Usage Log.” Use of the Peace Corps Vehicle Usage Log (form 522A)
is a critical part of the system for internal control over the use of fleet vehicles and is
necessary to ensure employees use government vehicles for official business or other
authorized purposes. The usage logs must contain all the necessary information to enable
compliance with Peace Corps policies.


               We recommend:

               F.3.a That the country director require that the general
                     services officer, in coordination with the
                     administrative officer, implement Peace Corps form



Final Audit Report: Peace Corps/Nicaragua                                                24
                      522A to track vehicle usage and instruct vehicle
                      users on how to complete the form.


4. The general services officer did not establish an effective process for vehicle
   maintenance.

PCM section 527.5.3 states:

       Each post will maintain vehicles and records of the following:

       (a) Manufacturer recommended preventive maintenance as outlined in the
           vehicle manual for operation under extreme conditions as appropriate;

       (b) Purchase and installation of special, heavy-duty parts and accessories
           that the post determines are required by local conditions, e. g., oil pan
           and gas tank protective plates, lock-out hubs, roll bars, roll cages, and
           heavy-duty springs.

The maintenance records were not well organized or easily located because the GSO kept
vehicle maintenance records within the vehicle usage folders. In addition, the records did
not include manufacturer recommended preventive maintenance information. As a result,
the GSO could not effectively manage his fleet. For example, during our site visit we
determined that five vehicles had faulty backdoors which would not open. Often times
the back door is the nearest exit in a vehicle and in case of an emergency would need to
function properly. We notified the GSO who subsequently was able to repair the doors.
In our opinion, the post could have corrected this problem sooner if better maintenance
records were kept and consistently used to identify and schedule repair of problems with
vehicles.

Good maintenance records are essential to vehicle safety, reliable operation, and resale
value. Further, Peace Corps policy requires posts to maintain current and complete
maintenance records on its vehicle fleet.


               We recommend:

               F.4.a That the country director require that the general
                     services officer maintain separate files for each
                     vehicles’ maintenance schedule. The schedule must
                     include manufacturer suggested maintenance and
                     list all servicing of the vehicle.

               F.4.b That the general services officer must regularly
                     review the driver comments on mechanical issues



Final Audit Report: Peace Corps/Nicaragua                                                  25
                       once the post implements the required vehicle usage
                       log.


5. The general services officer did not ensure all fleet vehicles were equipped with fire
   extinguishers and first aid kits.

PCM section 522.6.2 requires that each vehicle includes a safety (first aid) kit.

PCM section 270.3.2 states, “

       The CD [country director] is responsible for establishing procedures to
       monitor and assess personal safety and security environments for V/Ts
       [volunteers/trainees] and for apprising the RD [regional director] of safety
       and security issues that may emerge. The CD is responsible for
       establishing and maintaining protocols for communicating safety and
       security information to PC/W [Peace Corps/Washington] and to V/Ts
       throughout their service.

During the site visit, we inspected five of the 13 vehicles to determine if they were
equipped with the necessary safety supplies. Three of the five did not have fire
extinguishers and none of the vehicles contained a first aid kit. The administrative officer
said that the first aid kits cannot be stored in the vehicles because the heat would
negatively affect contents and informed us that the security guards keep vehicles supplies
inside their office. We were informed that whenever a vehicle left the post, the security
guards issued the driver a bag containing repair tools. However, we observed that first
aid kits were not included with items issued by the guards.

Fire extinguishers and first aid kits are important to providing personal safety for staff,
Volunteers, and Trainees while being transported in Peace Corps vehicles.


               We recommend:

               F.5.a   That the general services officer ensure that all fleet
                       vehicles are equipped with serviceable fire
                       extinguishers.

               F.5.b That the general services officer develop a list of
                     safety equipment that should be in each vehicle or
                     issued by the guard post in accordance with Peace
                     Corps policy.




Final Audit Report: Peace Corps/Nicaragua                                                     26
6. The post did not provide adequate separation of duties related to custody over fuel
   storage and recording its distribution.

The Government Accountability Office, “Standards for Internal Control in the Federal
Government,” states:
       Key duties and responsibilities need to be divided or segregated among
       different people to reduce the risk of error or fraud. This should include
       separating the responsibilities for authorizing transactions, processing and
       recording them, reviewing the transactions, and handling any related
       assets. No one individual should control all key aspects of a transaction or
       event.

The post maintains a fuel holding tank within its compound for purposes of refueling
Peace Corps vehicles. The administrative officer is the approving authority for fuel
purchases and reviews fuel usage logs. However, the post’s driver controlled all of the
functions related to the fuel distribution including key access to unlock the fuel holding
tank, dispensing of fuel, maintaining fuel logs to record use, and signed receipt of the
fuel.

There was inadequate separation of duties, because the same individual controlled the
custody of the fuel in the post’s holding tank and recording its use. The country director
monitored monthly vehicle mileage and the administrative officer compared the vehicle
purchased fuel with the vehicle usage log. However, these controls can only detect
potential issues after they occur instead of preventing unauthorized fuel usage.

Establishing separation of duties related to custody and distribution of the post’s fuel
supply is a critical part of the post’s system for internal control designed to prevent fraud,
waste, and abuse associated with fuel consumption. To comply with federal and Peace
Corps policy, the post needs to strengthen its controls by separating the responsibilities
for custody of fuel and its distribution for use.


               We recommend:

               F.6.a   That the country director separate the responsibility
                       for maintaining custody over fuel storage from the
                       recording of fuel distributed for use.


G. PERSONAL SERVICES CONTRACTS

1. The post did not include a copy of the most recent performance evaluations in the
   personal services contract (PSC) files.

PCM section 743.19 states:
       It is U.S. Government policy that a PSC's performance be evaluated
       during and at the completion of each contract. Only complete and
Final Audit Report: Peace Corps/Nicaragua                                                    27
       objective written performance evaluations may be utilized in the
       acquisition process to access the PSC's past performance and in
       considering the contractor for future awards.

       All PSCs will be evaluated by the country director, or another Peace Corps
       employee designated by the country director, during and at the completion
       of their in-country work. A copy of the evaluation should be maintained
       by the Country Director. . .

Eleven of the 14 PSC files we reviewed did not contain a copy of the employee’s most
current performance evaluation. Further, four of these 11 PSC files did not contain any
previous evaluation.

PCM section 743 includes attachment F, “Personal Service Contract File Checklist.”
This checklist assists posts in identifying and including all necessary information in PSC
files. The checklist includes statement of work, competition documents, security
clearance, and intelligence background certification. Although two of the 14 PSC files
reviewed contained a checklist, it was not the most current version.

Evaluations are essential for determining whether PSCs are fulfilling the duties assigned
in their contracts. The evaluations also assist in identifying developmental needs.
Without proper documentation the country director may be unable to justify employee
promotions, terminations, and other administrative actions. Additionally, use of the
Personal Service Contract File Checklist is an effective management tool to ensure
compliance with Peace Corps policy.


               We recommend:

               G.1.a That the country director or other designated
                     supervisor conduct annual performance evaluations
                     of all personal services contractors and ensure that
                     copies of the evaluations be included in their files.

               G.1.b That the administrative officer prepare a Personal
                     Service Contract File Checklist for each PSC file to
                     ensure all required elements are contained within
                     the files.


2. The personal services contract files did not always include documentary evidence
   that the post competed positions.

PCM section 743.9.2.1 states:
       …offers are to be requested from at least three potentially qualified
       candidates. If three qualified candidates cannot be identified without

Final Audit Report: Peace Corps/Nicaragua                                                 28
       advertising, the contract must be advertised locally in accordance with
       Embassy/Post practice for direct-hire employees or PSCs (e.g.,
       Post/Embassy bulletin board or website, in a general circulation
       newspaper) or using some other method that would reasonably be
       expected to produce at least three potentially qualified candidates.

Three of the 14 PSC files reviewed did not contain documentation showing that the
contracts were competitively awarded. Without evidence of an appropriate competitive
process, there is no assurance that a contract was awarded in accordance with Peace
Corps policy requiring fair and open competition.


               We recommend:

               G.2.a That the administrative officer ensure that
                     applicable Peace Corps policy is fully complied
                     with by requiring that personal services contract
                     positions be competed and related documentation of
                     the competitions be retained in personal services
                     contractor files for all future contracts.


3. Personal services contractors did not complete the required intelligence
   background information certification form.

According to PCM section 743.8.1:
       Personal Services Contractors are subject to the policy and eligibility
       standards set forth in Peace Corps Manual Section 611 concerning
       eligibility of applicants with intelligence backgrounds. … Prospective
       PSCs are required to complete the Intelligence Background form provided
       as Attachment A to Manual Section 611, in addition to being certified
       through the appropriate security clearance process.

PCM section 611.1.0 states:

       The policy is founded on the premise that it is crucial to the Peace Corps
       in carrying out its mission that there be a complete and total separation of
       Peace Corps from the intelligence activities of the United States
       government, both in reality and appearance. Any semblance of a
       connection between Peace Corps and the intelligence community would
       seriously compromise the ability of the Peace Corps to develop and
       maintain the trust and confidence of the people of the host countries.

The administrative officer was not aware of the requirement for PSC’s to complete the
intelligence background information certification form. As a result, the post did not have


Final Audit Report: Peace Corps/Nicaragua                                              29
assurance that employees had not been associated with intelligence activities that may
compromise the host country’s confidence in the Peace Corps.

It is important for the administrative officer to obtain and maintain completed intelligence
background information certification forms for all PSCs because agency policy dictates
that individuals who have prior connections with intelligence activities through
employment, related work, or even family relations may be ineligible for a personal
services contract.


               We recommend:

               G.3.a That the country director require all personal
                     services contractors to complete an intelligence
                     background information certification form in
                     accordance with Peace Corps policy.

               G.3.b That the administrative officer include copies of
                     personal services contractors’ completed
                     intelligence background information certification in
                     their respective files.


4. The administrative officer did not request and obtain updated security clearances
   for personal services contractors.

PCM section 743.8 states:
       Foreign nationals are not permitted access to classified information or
       material. Also, the Country Director must request the Embassy Security
       Officer to conduct an appropriate investigation of a proposed PSC prior to
       executing a Personal Services Contract with a foreign national.

Upon the post’s request, the embassy security officer will conduct an investigation and
issue a security clearance if the employee receives a favorable investigative report. The
security clearances are valid for five years and list the expiration date on the form
provided to the Peace Corps.

During our review of PSC and FSN files, we determined that several files did not contain
a security clearance and many of the security clearances on file were more than five years
old. The embassy security officer provided a comprehensive list of the Peace
Corps/Nicaragua employees that included the date of their last security clearance. The
list showed that seven of the 36 employees did not have any security clearance and 15
employees did not have a security clearance update within the last five years; the oldest
one had expired in June 2000.



Final Audit Report: Peace Corps/Nicaragua                                                30
Executive Order 10450 states, “The interests of the national security require that all
persons privileged to be employed in the departments and agencies of the Government,
shall be reliable, trustworthy, of good conduct and character, and of complete and
unswerving loyalty to the United States.” Security clearances are necessary to safeguard
Peace Corps information and resources from untrustworthy or unreliable individuals.
Maintaining current security clearances provides reasonable assurance that employees are
in fact reliable, trustworthy, and of good conduct and character.


               We recommend:

               G.4.a That the administrative officer request that the
                     embassy security officer perform a security
                     clearance investigation for the seven employees
                     lacking a clearance and updated security clearances
                     for the 15 employees with expired clearances.

               G.4.b That the administrative officer track the employee
                     security clearance expiration dates to ensure the
                     post requests updated clearances timely.

               G.4.c That the administrative officer include copies of the
                     security clearances in the personal services
                     contractor files.


H. LEASES

1. Lease files did not contain all required documentation.

PCM section 733.4.2 states:
       Upon identifying property/space needs, a market survey shall be
       conducted to determine availability and price of property meeting those
       needs. Methods of conducting a market survey may include advertising in
       the local media or contacting rental agents.

We reviewed all five leases at the post and determined that none of the lease files
contained evidence of a market survey. According to the administrative officer, the post
uses a rental agent. One file included an excel spreadsheet listing 15 properties that the
post had reviewed. However, the files did not contain correspondence or other evidence
that a rental agent was used.

In order to ensure the best use of Peace Corps funds and comply with policy, all
appropriate approvals and associated documentation must be obtained before leases are
signed and included in the lease files.


Final Audit Report: Peace Corps/Nicaragua                                               31
               We recommend:

               H.1.a That the administrative officer maintain all required
                     information in current lease files, including
                     documentation related to arrangements with rental
                     agents.


I. RECORDS MANAGEMENT

1. The post did not adequately store financial records.

PCM section 892.6.5 states:

       Offices shall institute adequate records management controls over the
       maintenance and use of records to ensure that records can be located when
       needed and that they are preserved for eventual disposition. Procedures
       for complying with this requirement are in the Records Management
       Handbook available from the Records Officer. Offices shall also follow
       the guidance for safeguarding specific types of records in various manual
       sections (see MS 267, Volunteer Medical Records; MS 833, National
       Security Classified and Agency-Designated Protected Information; MS
       893, Freedom of Information Act Administration; and MS 897, Privacy
       Act Administration).

PCM section 892.6.6 further states:

       Offices shall ensure that permanent records are preserved and that records
       that are no longer of use to the Agency are properly disposed of or retired.
       All offices must comply with retention standards approved by the
       Archivist of the United States. Retention standards for Peace Corps
       records are contained in the Records Management Handbook.

The post properly stored the three most current FY’s financial documents in files located
in the financial office. The financial assistant maintained the documents in binders,
color-coded by FY, and arranged in alphabetical order. However, FY 2005 financial files
were kept in boxes in the storage shed. Records related to prior FYs were disorganized
and in boxes in the warehouse. Both the storage shed and warehouse are not considered
secure for purposes of storing personal identifiable information because they are
accessible to many individuals.

OFMH section 22 and the “Peace Corps Guide to Record Management” provide agency
record retention policies in accordance with the National Archives and Records
Administration requirements. The post must retain most financial records for three years.
However, each type of record has a different requirement, for example posts must
maintain contract files for six years and three months after final payment. Therefore,

Final Audit Report: Peace Corps/Nicaragua                                             32
good record retention practices are necessary to ensure compliance with Peace Corps and
federal regulations.

Financial records may contain personal identifiable information, and as a result, must be
kept in a secure place with limited accessibility until they are properly disposed. The
post could improve its record retention process by marking all binders and storage
containers with instructions on how and when to dispose the documents.


               We recommend:

               I.1.a   That the country director require that the financial
                       records be removed from the storage shed and
                       warehouse and relocated to a secure area. Further,
                       he ensure only those records determined to be
                       useful or that are inside the required retention
                       period be preserved. Records selected for disposal
                       must be destroyed in accordance with Peace Corps
                       policy.

               I.1.b That the administrative officer mark financial record
                     binders and storage containers with the retention
                     period and disposal instructions.


J. INFORMATION TECHNOLOGY

1. The Information Technology (IT) specialist did not maintain separate records
   related to the staff’s information technology training and security awareness
   program.

According to PCM section 542.76.1:

       The IT security awareness program shall:

       a. Be designed to raise staff awareness of, and sensitivity to, security
          threats and vulnerabilities, as well as the need to protect systems, data,
          and networks;

       b. Require that every system user attend refresher awareness programs on
          an annual basis. Refresher program activities may be in the form of
          seminars, briefings, videotapes, or computer-based products delivered
          via CD-ROM, Intranet, Internet, or local area network (LAN). The
          simple distribution of newsletters or security awareness items, such as,
          key chains, pens, buttons, or notepads, can be used to supplement the
          refresher courses; and

Final Audit Report: Peace Corps/Nicaragua                                               33
       c. Require all system users to receive, and acknowledge receipt of, the
          Peace Corps IT Users' Security Brochure, maintained in IRM, which
          outlines responsibilities and establishes computer system rules, before
          they are granted access to the agency's IT applications and systems.

The IT specialist is responsible for granting and restricting access to the post’s computer
network. Only authorized personnel with appropriate security training should have
access to the network. Therefore, it is important that the IT specialists have immediate
access to records associated with user training and permissions.

At the post, the administrative assistant maintained the security awareness and user
verification forms within each employee folder. As a result accessibility by the IT
specialist was limited and impaired his ability to track and maintain the employees’
compliance with IT requirements.

The IT specialist should maintain records pertaining to IT training and security awareness
in files separate from post employee personnel files. This enables the IT specialist to
have immediate and efficient access to the records for purposes of determining whether
users at the post comply with applicable Peace Corps policies and access has been
appropriately been restricted to only authorized users.


               We recommend:

               J.1.a   That the IT specialist maintain a complete file
                       containing all post employee training
                       documentation related to Information Technology
                       and security awareness in accordance with Peace
                       Corps Manual section 542 security and training
                       requirements.


2. The Information Technology specialist and administrative officer did not confirm
   and timely remove unnecessary user accounts from the computer network.

PCM sections 542.21.2 and 542.21.3 state:

       Account Managers are responsible for . . . expeditiously removing or
       disabling accounts, when necessary.

       Program Managers are responsible for . . . expeditiously notifying account
       managers of the need for accounts to be removed or disabled.

The IT specialist identified 13 questionable user accounts and provided the names of the
users to the administrative officer on January 16, 2009. Six of the questionable accounts
were names of people and seven were generic accounts such as “spam” and “outofsite.”
The IT specialist promptly disabled seven of the accounts, but needed confirmation from
Final Audit Report: Peace Corps/Nicaragua                                                34
the administrative officer concerning the need for the remaining six accounts. At the
time of our audit, all six accounts questioned by the IT specialist were still active.

In order to maintain effective security the post’s server must be restricted to authorized
individuals with a need for computer access. Timely removal of unnecessary user
accounts prevents unwanted access to Peace Corps information and safeguards the
network from potential harm.


               We recommend:

               J.2.a   That the information technology specialist, in
                       conjunction with the administrative officer,
                       promptly determine the need for the six
                       questionable user accounts and immediately remove
                       accounts determined to be unnecessary from the
                       server.


K. VOLUNTEER SUPPORT

1. The post did not conduct market basket surveys to determine whether Volunteer
   allowances were appropriate.

PCM section 221.5.7.2 states:

       To verify living allowance survey submissions, a Market Basket Survey
       shall be conducted by staff. A market basket survey consists of selected
       staple items commonly appearing on the living allowance survey from
       each allowance category and should be priced by staff in multiple
       locations. If there are locality supplements being paid to some Volunteers,
       it is recommended that a separate market basket survey be conducted in
       each locality. The market basket survey is to be used as a guide to
       validate the cost data on the living allowance survey submissions. Large
       differences in prices between the market basket items and the volunteer
       allowance submissions should be reviewed by post during the analysis of
       the surveys and adjusted, if necessary.

The administrative officer informed us that the post had not conducted a market basket
survey in the last two years. According to the administrative officer, the post compared
living allowances surveys to the cost of goods survey reported by the Nicaraguan
government. However, the reports were not specifically divided by the same localities
the Peace Corps Volunteers were assigned. Further, the post did not document the
comparison of the living allowance surveys and government reports. In our opinion, the
post would have more assurance that Volunteer allowances were appropriate if the staff
conducts market basket surveys in accordance with PCM section 221.

Final Audit Report: Peace Corps/Nicaragua                                                    35
Market basket surveys are required by Peace Corps policy and are essential for
determining whether Volunteer allowances are reasonable. Without the market basket
survey, the post must rely on data submitted by the Volunteers and outside information
which may not be fully sufficient for purposes of setting a reasonable allowance.


               We recommend:

               K.1.a That the post conduct a market basket survey in
                     conjunction with each living allowance survey and
                     compare the results to determine if volunteer
                     allowances are reasonable. In accordance with
                     Peace Corps policy, the post must analyze
                     significant differences and make any necessary
                     adjustments in living allowances.


L. TRAVEL

1. Travel vouchers were not submitted timely.

OFMH sections 55.6.1 and 57.6 require staff to prepare travel vouchers within five days
of completion of travel. The post administrative unit is required to review and approve
travel vouchers.

Four out of five travel obligations we reviewed were submitted more than five days after
return from travel. Vouchers must be submitted timely in order to reimburse staff for
their travel expenses, to clear debts from interim cash advances for travel, and to more
effectively manage the travel budget.


               We recommend:

               L.1.a That the country director require staff to submit
                     travel vouchers timely in accordance with Peace
                     Corps policy.




Final Audit Report: Peace Corps/Nicaragua                                                36
                        QUESTIONED COSTS AND
                       FUNDS PUT TO BETTER USE
We identified funds to be put to better use during the course of the audit. They are
discussed in the accompanying audit report and enumerated below along with the
recommendation number in the report. (Amounts are in U.S. dollars or U.S. dollar
equivalents of Nicaraguan Cordobas.)


                              Funds Put to Better Use
  Recommendation
                                             Description                         Amount
      number
       F.1.a             Vehicle awaiting disposal                               $32,800




Final Audit Report: Peace Corps/Nicaragua                                              37
                                POST STAFFING
At the time of our visit, the post had 38 staff positions: two U.S. direct hire (USDH)
employees, two FSNs, and 34 PSCs. The following lists the Peace Corps Nicaragua staff
as of January 16, 2009.

                                PC/Nicaragua’s Positions
                              Position                      Status
              Country Director                              USDH
              Programming and Training Officer              USDH
              Administrative Officer                         FSN
              Cashier (vacant during site visit)             FSN
              Administrative Assistant                      PSC*
              Administrative Assistant                       PSC
              Driver and Storage Clerk                       PSC
              Driver and Messenger                           PSC
              General Services Assistant                     PSC
              Health Project Specialist                      PSC
              HR Specialist                                  PSC
              Information Technology Specialist              PSC
              Language & Culture Facilitator (2)             PSC
              Language and Culture Facilitator (4)           PSC
              Logistics Coordinator                          PSC
              Master Trainer                                 PSC
              Medical Administrative Assistant               PSC
              Medical Officer (4)                            PSC
              Program Manager (4)                            PSC
              Project Specialist (5)                         PSC
              Receptionist                                   PSC
              Safety and Security Coordinator                PSC
              Technical Trainer                              PSC
              Training Manager                               PSC
             * Position recently reclassified as FSN.




Final Audit Report: Peace Corps/Nicaragua                                           38
                      LIST OF RECOMMENDATIONS
WE RECOMMEND:

A.1.a That the administrative officer require that post staff submit purchase requests to
      an approving official prior to placing orders for goods and services so that
      funding availability can be verified and funds are obligated on approval.

A.2.a That the country director designate a receiving officer, other than the
      administrative officer, that is accountable for accepting deliveries of goods and
      services and completing the required information, including the date of receipt, on
      form PC-2059, “Payment Voucher and Receiving Report.”

B.2.a That the administrative officer immediately move the imprest fund cash to a safe
      containing a U.S. government approved three-tumbler combination lock and
      request the regional security officer determine whether the safes in the cashier
      cage are approved for U.S. government use.

B.2.b That the new principal cashier, upon assuming post cashiering responsibilities,
      keep the cash in a U.S. government approved safe within the cashier’s cage or
      appropriate secure area.

B.2.c That the administrative officer ensure that the combination of the safe where
      imprest fund cash is stored be immediately changed when there is a change in the
      responsible cashier.

B.3.a That the cashier secure the cash in separate, locked cash boxes within the safe.

B.3.b That the cashier remove all items not related to the imprest fund from the imprest
      fund safe.

B.4.a That the information technology specialist resolve the problem with the
      administrative officer’s access to FORPost in the cashier cage.

B.4.b That the cashier conduct all cashier operations within the cashier cage.

C.1.a That the country director ensure that staff record their time and attendance using
      PC-1548, or a similar form that captures all of the minimally necessary time and
      attendance data, and that supervisors certify the data recorded through signature.

D.1.a That the country director designate a staff member as an acceptance point who is
      outside the medical unit and not the medical supply inventory control clerk to
      immediately begin to receive, inspect, and distribute medical supplies to the
      medical unit and assume all other duties as described in PCM section 734.


Final Audit Report: Peace Corps/Nicaragua                                                39
D.1.b That the country director designate a staff member outside of the medical unit
      who is not the medical supply inventory control clerk or acceptance point to
      perform quarterly physical inventories of medical supplies.

D.1.c That the country director ensure that duties associated with receipt and acceptance
      of medical supplies; maintaining official medical supply inventory records of
      specially designated items and controlled substances; and periodic physical
      inventory counts be without exception, assigned to separate staff members that are
      outside the medical unit.

D.2.a That the country director require that an immediate physical inventory count of
      medical supplies be performed by a designated staff member (as discussed in
      recommendation D.1.b above).

D.2.b That the country director, in conjunction with the medical officers, review the
      results of the comprehensive physical inventory and reconcile any differences
      found. The medical officers must fully explain all discrepancies found, provide
      proposed adjustments in inventories accordingly, and report any losses in
      accordance with PCM section 734.

D.2.c That the country director approve the proposed adjustments (if any) to the
      inventory.

D.2.d That the medical supply inventory control clerk document the results of the
      comprehensive medical supply inventory together with any approved adjustments
      to the inventory in permanent inventory records as prescribed in PCM section
      734.

D.2.e That the medical unit provide the medical supply inventory control clerk with PC-
      743C forms recording the dispensing of all medical supplies that are specially
      designated or controlled substances at least on a monthly basis.

D.2.f That the medical supply inventory control clerk maintain an accurate and
      complete medical supply inventory record based on receipting documents
      provided by the acceptance point, PC-743C forms recording dispenses, disposal
      documentation, and reconciliation of the results from the quarterly physical
      inventory counts.

D.3.a That the country director increase the size of the medical offices to provide
      adequate and secure space to store all medical supplies in compliance with Peace
      Corps policy.

D.3.b That the medical unit install a lock on the refrigerator containing medical supplies
      to secure the items until they can be relocated to the medical office.




Final Audit Report: Peace Corps/Nicaragua                                               40
E.1.a That the country director separate the duties of maintaining the inventory records
      and conducting the annual physical inventory by appointing an individual other
      than the property officer to conduct the annual inventories.

E.2.a That the country director ensure there is a consistent inventory process in place
      that clearly indicates property has been verified, discrepancies are noted, and the
      dates of inventories are documented. Further, accountable property holders must
      not be assigned to perform physical inventory of property they are held
      accountable for.

E.2.b That the property officer develop a schedule that provides for inventory different
      property categories throughout the year to ensure that all property is inventoried
      within a year.

E.3.a That the property officer review the results of the last inventory and update the
      property records and continue to consistently update the property records
      immediately after each physical inventory.

E.3.b That the country director verify that all property records are updated timely after
      each physical inventory.

E.4.a That the property officer organize and document all property in the storage shed
      and warehouse. The documentation must include all excess property and its
      condition to provide an accurate listing of items in need of sale or other means of
      disposal.

E.4.b That the post inform the embassy of all excess property to be sold at the next
      auction. If the embassy is unable to sell the property timely, the post must
      arrange to sell it through a public sale in accordance with the Peace Corps Manual
      section 511.

E.4.c That the post immediately dispose of obsolete property or property not worth
      selling because the cost of storing and maintaining it would exceed the benefit.
      The disposal must be fully documented in accordance with the Peace Corps
      Manual section 511.

E.4.d Once the post sells or disposes its excess property, that the country director, in
      coordination with the property manager, reassess the post’s storage requirements
      and determine the most efficient means to secure and store excess property on
      hand. Specifically, the post must reconsider the size of storage space needed and
      develop a standard operating procedure for organizing and storing its excess
      property.

F.1.a That the post dispose or transfer all excess vehicles in accordance with the
      approval to delay disposal or request the an additional approval to delay disposal
      from the region and Peace Corps post logistics support office.

Final Audit Report: Peace Corps/Nicaragua                                                 41
F.1.b That the country director maintain the post’s number of vehicles in accordance
      with the post’s approved vehicle fleet plan.

F.2.a   That the Post Logistics Support Office require that the post’s administrative
        officer always submit the required purchase documentation for local vehicle
        procurements, including a lifecycle cost comparison and justification for
        purchasing vehicles that are not white. The cost comparisons, any associated
        justifications, and approvals must be maintained in the fleet vehicle
        documentation files at post.

F.2.b That the administrative officer provide the required cost comparison and
      associated justifications to the Post Logistics Support Office whenever purchasing
      a vehicle.

F.3.a   That the country director require that the general services officer, in coordination
        with the administrative officer, implement Peace Corps form 522A to track
        vehicle usage and instruct vehicle users on how to complete the form.

F.4.a   That the country director require that the general services officer maintain
        separate files for each vehicles’ maintenance schedule. The schedule must
        include manufacturer suggested maintenance and list all servicing of the vehicle.

F.4.b That the general services officer must regularly review the driver comments on
      mechanical issues once the post implements the required vehicle usage log.

F.5.a   That the general services officer ensure that all fleet vehicles are equipped with
        serviceable fire extinguishers.

F.5.b That the general services officer develop a list of safety equipment that should be
      in each vehicle or issued by the guard post in accordance with Peace Corps
      policy.

F.6.a   That the country director separate the responsibility for maintaining custody over
        fuel storage from the recording of fuel distributed for use.

G.1.a That the country director or other designated supervisor conduct annual
      performance evaluations of all personal services contractors and ensure that
      copies of the evaluations be included in their files.

G.1.b That the administrative officer prepare a Personal Service Contract File Checklist
      for each PSC file to ensure all required elements are contained within the files.

G.2.a That the administrative officer ensure that applicable Peace Corps policy is fully
      complied with by requiring that personal services contract positions be competed
      and related documentation of the competitions be retained in personal services
      contractor files for all future contracts.

Final Audit Report: Peace Corps/Nicaragua                                                    42
G.3.a That the country director require all personal services contractors to complete an
      intelligence background information certification form in accordance with Peace
      Corps policy.

G.3.b That the administrative officer include copies of personal services contractors’
      completed intelligence background information certification in their respective
      files.

G.4.a That the administrative officer request that the embassy security officer perform
      a security clearance investigation for the seven employees lacking a clearance and
      updated security clearances for the 15 employees with expired clearances.

G.4.b That the administrative officer track the employee security clearance expiration
      dates to ensure the post requests updated clearances timely.

G.4.c That the administrative officer include copies of the security clearances in the
      personal services contractor files.

H.1.a That the administrative officer maintain all required information in current lease
      files, including documentation related to arrangements with rental agents.

I.1.a   That the country director require that the financial records be removed from the
        storage shed and warehouse and relocated to a secure area. Further, he ensure
        only those records determined to be useful or that are inside the required retention
        period be preserved. Records selected for disposal must be destroyed in
        accordance with Peace Corps policy.

I.1.b That the administrative officer mark financial record binders and storage
      containers with the retention period and disposal instructions.

J.1.a   That the IT specialist maintain a complete file containing all post employee
        training documentation related to Information Technology and security awareness
        in accordance with Peace Corps Manual section 542 security and training
        requirements.

J.2.a   That the information technology specialist, in conjunction with the administrative
        officer, promptly determine the need for the six questionable user accounts and
        immediately remove accounts determined to be unnecessary from the server.

K.1.a That the post conduct a market basket survey in conjunction with each living
      allowance survey and compare the results to determine if volunteer allowances
      are reasonable. In accordance with Peace Corps policy, the post must analyze
      significant differences and make any necessary adjustments in living allowances.

L.1.a That the country director require staff to submit travel vouchers timely in
      accordance with Peace Corps policy.

Final Audit Report: Peace Corps/Nicaragua                                                43
APPENDIX A

            OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and comply with Peace Corps
policies and federal regulations. Our audit conclusions are based on information from
three sources: (1) document and data analysis, (2) interviews, and (3) direct observation.
Our audits are conducted in accordance with the government auditing standards
prescribed by the Comptroller General of the United States.

The audit of Peace Corps/Nicaragua covered the period October 1, 2007 – February 13,
2009. While at the post, we interviewed key staff: the country director, the
administrative officer, staff responsible for administrative support, and the medical
officer. At the end of our audit, we briefed the country director and administrative
officer. At headquarters, we conducted a general briefing for regional staff.

We relied on computer-processed data from the post’s accounting system. While we did
not test the system’s controls, we believe the information generated by the system and
used by us was sufficiently reliable for our audit objective. In addition, we reviewed
physical documentation for the transactions provided from the accounting system and did
not identify any discrepancies.

Our audit criteria were derived from the following sources: federal regulations, the Peace
Corps Manual, the Overseas Financial Management Handbook, and current Peace Corps
initiatives and policies.


                             LIST OF ACRONYMS

FSN                                                             Foreign Service National
FY                                                                            Fiscal Year
GSO                                                              General Services Officer
MSIC                                                   Medical Supply Inventory Control
OFMH                                           Overseas Financial Management Handbook
PCM                                                                 Peace Corps Manual
PCMO                                                        Peace Corps Medical Officer
PLSO                                                        Post Logistics Support Office
PSC                                                         Personal Services Contractor
USDH                                                            United States Direct Hire
APPENDIX B

             MANAGEMENT’S RESPONSE TO
              THE PRELIMINARY REPORT
APPENDIX C

                                OIG COMMENTS

Management concurred with all 55 recommendations made in our report. As a result, we
closed 47 of the recommendations. We request additional documentation to close the
remaining 8 recommendations.

Recommendations A.2.a, D.2.b, D.2.c, D.2.d, E.4.b, E.4.c, I.1.b, and K.1.a remain open
pending confirmation from the chief compliance officer that the following has been
received:

       •   For recommendation A.2.a: a copy of the letter delegating receiving officer
           responsibility to an individual other than the administrative officer.

       •   For recommendation D.2.b, D.2.c, and D.2.d: a copy of the adjustments to the
           medical inventory records based on the most recent physical inventory.

       •   For recommendation E.4.b: a copy of the auction documentation from the
           embassy listing the items sold and sales totals.

       •   For recommendation E.4.c: a copy of the recent property disposal
           documentation.

       •   For recommendation I.1.b: a picture or documentation showing the retention
           periods have been marked on financial record binders and storage containers.

       •   For recommendation K.1.a: a copy of the most recent market basket survey
           results.

Although we closed recommendation F.2.a because of anticipated revisions to the vehicle
procurement process, the issue of monitoring local vehicle procurements continues to be a
concern. In their response, the chief of administrative services stated that he removed the
requirement for posts to justify purchases using life-cycle cost because the calculation was
only an estimate. We understand that life-cycle cost is not always an accurate
measurement of vehicle value. However, this audit and recent events have highlighted the
need for additional monitoring of local vehicle procurements. Therefore, we emphasis the
need for the Post Logistics Support Office to obtain and review local vehicle procurement
justifications. The Peace Corps vehicle policy board is reviewing vehicle procurement
process and has recommended the regions and posts, “Establish firm and generally-
accepted vehicle selection criteria, vehicle specifications, and the necessary ‘Peace Corps’
standard options for new vehicle purchases.” The Peace Corps will fulfill the intent of this
recommendation if regions clearly define the selection criteria and monitor posts’
compliance.
APPENDIX C
In their response, management describes actions they are taking or intend to take to
address the issues that prompted each of our recommendations. We wish to note that in
closing recommendations, we are not certifying that they have taken these actions nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when it is warranted, we may conduct a follow-
up review to confirm that action has been taken and to evaluate the impact.
APPENDIX D

        AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION   The audit was performed by auditor Bradley Grubb.


OIG CONTACT        If you wish to comment on the quality or usefulness of this
                   report to help us strengthen our product, please e-mail
                   Gerald P. Montoya, Assistant Inspector General for Audit,
                   at gmontoya@peacecorps.gov, or call him at
                   (202) 692-2907.
        REPORT FRAUD, WASTE, ABUSE,
            AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, and abuse related to Peace Corps
operations domestically or abroad. You can report allegations to
us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  (800) 233-5874
               Washington Metro Area:              (202) 692-2915


Fax:           (202) 692-2901

E-Mail:        oig@peacecorps.gov
